<html>
<title> - MATERIAL SCIENCE: BUILDING THE FUTURE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]









                           MATERIAL SCIENCE: 
                          BUILDING THE FUTURE

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON ENERGY &
                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             June 28, 2017

                               __________

                           Serial No. 115-19

                               __________

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov





                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-236 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  ALAN GRAYSON, Florida
THOMAS MASSIE, Kentucky              AMI BERA, California
JIM BRIDENSTINE, Oklahoma            ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           JERRY MCNERNEY, California
GARY PALMER, Alabama                 ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         MARC A. VEASEY, Texas, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              JACKY ROSEN, Nevada
JIM BRIDENSTINE, Oklahoma            JERRY MCNERNEY, California
STEPHEN KNIGHT, California, Vice     PAUL TONKO, New York
    Chair                            JACKY ROSEN, Nevada
DRAIN LaHOOD, Illinois               BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              AMI BERA, California
NEAL P. DUNN, Florida                MARK TAKANO, California
LAMAR S. SMITH, Texas                EDDIE BERNICE JOHNSON, Texas
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
DARIN LaHOOD, Illinois               SUZANNE BONAMICI, Oregon
RALPH LEE ABRAHAM, Louisiana         AMI BERA, California
DANIEL WEBSTER, Florida              DONALD S. BEYER, JR., Virginia
JIM BANKS, Indiana                   EDDIE BERNICE JOHNSON, Texas
ROGER W. MARSHALL, Kansas
LAMAR S. SMITH, Texas

























                            C O N T E N T S

                             June 28, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     4
    Written Statement............................................     6

Statement by Representative Marc A. Veasey, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Statement by Representative Barbara Comstock, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    14

Statement by Representative Daniel Lipinski, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    16
    Written Statement............................................    18

                               Witnesses:

Dr. Matthew Tirrell, Deputy Laboratory Director for Science and 
  Chief Research Officer, Argonne National Laboratory
    Oral Statement...............................................    21
    Written Statement............................................    23

Dr. Laurie Locascio, Acting Associate Director for Laboratory 
  Programs and Director, Material Measurement Laboratory, 
  National Institute of Standards and Technology
    Oral Statement...............................................    29
    Written Statement............................................    41

Dr. Adam Schwartz, Director, Ames Laboratory
    Oral Statement...............................................    39
    Written Statement............................................    41

Dr. Fred Higgs, John and Ann Doerr Professor of Mechanical 
  Engineering, Rice University
    Oral Statement...............................................    50
    Written Statement............................................    52

Discussion.......................................................    62


             Appendix I: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    84

Document submitted by Representative Bill Foster, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    86

 
                 MATERIAL SCIENCE: BUILDING THE FUTURE

                              ----------                              


                        WEDNESDAY, JUNE 28, 2017

                  House of Representatives,
                         Subcommittee on Energy and
            Subcommittee on Research and Technology
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:09 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Randy 
Weber [Chairman of the Subcommittee on Energy] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Weber. The Subcommittees on Energy and Research 
will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittees at any time.
    So welcome to today's hearing titled ``Materials Science: 
Building the Future.''
    I now recognize myself for five minutes for an opening 
statement.
    Today, we will have the opportunity to review federally 
funded research in materials science. I want to thank our panel 
of witnesses for joining us to share your important research, 
and provide the knowledge necessary to set priorities for basic 
science research.
    Materials science is the discovery of new materials with 
novel structures, functions, and properties. In this area of 
science, researchers study the chemical, physical, atomic, and 
magnetic properties of an existing material, and use that 
knowledge to create new materials with ideal properties. By 
designing and creating new materials, researchers at our 
national labs and universities can solve complex engineering 
challenges and enable the development of new technologies.
    Today, federal agencies ranging from the Department of 
Defense to the National Science Foundation and DOE are pursuing 
research in this area because the value to our end users is 
clear. By tailor-making materials for a specific use, 
scientists can create materials that increase efficiency and 
better store energy; reduce the environmental impacts and 
improve the safety of energy production technologies; develop 
stronger and more resilient artificial joints; improve high 
performance computing systems; and better protect our soldiers 
and athletes in the field.
    As Madonna would say, we are certainly living in a material 
world. For example, Dr. Fred Higgs, who joins us from Rice 
University--my sister graduated from Rice, Dr. Higgs--and I 
were having that conversation--will testify about how the 
development of materials such as diamond-like carbons and 
nanocrystalline diamond can lead to long-lasting, wear-
resistant artificial knees and hips that could last decades 
longer than today's technology.
    At Ames Lab, led by Dr. Adam Schwartz who joins our panel 
today, the Department of Energy has cultivated decades of 
expertise in metallurgy and materials science. Researchers at 
Ames Lab pioneered the use of metallic powders in 3D printing. 
As Dr. Schwartz will testify, this expertise has enabled the 
production of high-purity metal powders that can be used in the 
creation of industrial parts for military, biomedical, and 
aerospace applications.
    I'm also particularly interested in Ames' ongoing early-
stage research in caloric materials for refrigeration and air 
conditioning--I own an air conditioning company, which if--and 
we're going to talk about this, in fact, the whole hearing may 
be on this-- which if successful--I mean, how cool is that, 
right?--which if successful could save 20 to 25 percent of the 
generated electricity used for cooling, refrigeration, and air 
conditioning in the United States. Now, let that sink in: 20 to 
25 percent of the energy used for refrigeration and air 
conditioning and heating in the United States.
    Finally, just this week, a researcher at Argonne National 
Lab, which Dr. Tirrell is testifying on behalf of today, won 
the 2017 TechConnect National Innovation Award for developing a 
more efficient method to create graphene. This one area of 
materials science research could improve technology for 
advanced touch screens, long-lasting batteries, transparent and 
conducting coatings for solar cells, and next-generation oil-
free solid lubricants.
    Materials science also provides a perfect example of the 
broad economic benefit of investments in research 
infrastructure. The core capabilities and user facilities at 
our national labs are essential for the discovery and design of 
new materials. There is nowhere else in the world where an 
individual researcher or company could access a light source, 
high performance computing capabilities, and the specific 
expertise in materials synthesis that is available in our 
system of national labs.
    You may hear today about how this vital area of research is 
at risk of being left behind because of budget cuts or changing 
priorities but basic and early stage research in materials 
science is exactly what this Committee has always supported.
    Discoveries in materials science require tools and 
expertise provided by national labs, and industry users are 
ready and waiting to commercialize--commercialize--they're 
waiting to take it to market technology based on this 
fundamental science.
    Hearings like today's help remind us of the Science 
Committee's core focus: the basic research that provides the 
foundation for technology breakthroughs. Before we can ever see 
the deployment of a better battery, a stronger material for 
protective gear, or wear-resistant materials for medicine or 
energy production, we must invest in the science infrastructure 
that makes these discoveries possible.
    [The prepared statement of Chairman Weber follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Chairman Weber. I now yield to the Ranking Member, Mr. 
Veasey.
    Mr. Veasey. Thank you, Mr. Chairman, my fellow Texan, and 
also Chair Comstock, for holding this hearing. We have a very 
impressive panel today, and I want to thank each and every one 
of you being here. I'm going to make my remarks brief because I 
think that everybody's really interested to hear what they have 
to say today, and I'm sure that as you are aware, we'd be hard-
pressed to find a scientific field that doesn't rely on 
materials science at some level to accomplish its research 
objectives. It is critically--it is a critically important area 
of research for answering the most pressing scientific 
questions and advancing our economy in the 21st century. 
Lightweight vehicles, high-performance building materials, more 
efficient turbines, and solar panels are just a few examples. 
The research and development of new materials can provide a 
direct benefit to consumers with savings on energy bills and 
benefits to our environment.
    Scientists at universities, national laboratories, and in 
the private industry utilize federal research grants and 
scientific user facilities to explore the frontiers of 
materials research. A better understanding of the properties of 
ceramics, glass, metals, composites, polymers, and plastics is 
achieved through materials research. By optimizing these 
properties, we can address key hurdles in developing new 
technologies with a variety of applications. Energy efficiency 
and reliability, public health and safety, and environmental 
stewardship can all benefit from strong investments in material 
research. In fact, I think we could sit here all day and talk 
about the immense benefits of material research, and I know 
that we're going to do just that, and like I said a little bit 
earlier, I think everybody is really excited to hear what you 
have to say.
    And while there seems to be strong support for this work in 
Congress, we cannot have this conversation without 
acknowledging the shortsighted and harmful Trump budget 
released last month. The Administration's budget would 
absolutely decimate the all-important field of materials 
science in the United States. The budget would cut sustainable 
transportation and renewable energy by 70 percent and energy 
efficiency by 80 percent. It would cut critical research on the 
electric grid and fossil fuels in half. It would eliminate 
ARPA-E, cut the Office of Sciences by 17 percent, and nuclear 
energy by 30 percent. All of these programs help fund the 
materials research that we will hear about today. And even if 
we wanted to, we can't balance the budget by slashing our 
research funding.
    The Administration's budget proposal will make the United 
States less competitive. These cuts would cause us to lose 
jobs, harm our public health, and hurt our international R&D 
partnerships. The proposed cuts are just absolutely puzzling. 
They just make no sense.
    I look forward to hearing from each of you on how the 
proposed budget cuts at DOE, at NSF, at NIST could hurt us in 
the area of materials research enterprise and U.S. 
competitiveness. I am particularly interested in hearing from 
Dr. Schwartz about the consequences these severe cuts could 
have at his laboratory, which has a special focus on materials 
research.
    The Administration has claimed that the private sector 
would simply start funding these key research areas once the 
federal government cuts them from its budget but I don't think 
that's based in reality. In fact, Administration officials 
recently confirmed that have not even begun a conversation with 
the private sector to determine what industry would be able or 
willing to pick up. So let's get back to reality and continue 
our strong support for these high-value research programs that 
are vital for American competitiveness, our quality of life, 
and our scientific leadership.
    And before I conclude, I do want to apologize to the Chair 
and the other Members and our panelists that are here today. We 
have an Armed Services markup today downstairs and so I'm going 
to be back and forth, but again, I think that what we're going 
to hear today is really going to be good and interesting, and I 
really appreciate the panelists that are here today.
    Mr. Chairman, I yield back.
    [The prepared statement of Mr. Veasey follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
     Chairman Weber. Well, thank you, Marc. I appreciate that. 
The good news is that the President doesn't have the last word. 
He may have the first tweet but not the last word. Did I say 
that out loud?
    I now recognize the Chairwoman of the Subcommittee on 
Research and Technology, Mrs. Comstock, for her opening 
statement.
    Mrs. Comstock. Thank you. Good morning.
    Today's hearing focuses on vital research in materials 
science. This basic and fundamental research provides the 
foundation for important new technologies in many fields 
including medicine, transportation, manufacturing, defense, 
energy, and computing, which ultimately helps improve our 
quality of life and grows the U.S. economy.
    Behind every new innovation from the iPhone to the 
International Space Station is decades of work by engineers, 
physicists, and chemists, creating the new materials that make 
it possible.
    Advances in materials science have been achieved in a 
variety of ways, from public-private partnerships, science 
prize competitions, and through investments made by the federal 
government, industry, and universities. By investing in STEM 
education and the research infrastructure necessary to advance 
this area of basic research, the federal government can fast-
track the development of industry specific materials that 
benefit American consumers.
    One recent example of a public-private partnership that I 
find of great interest is the NIST work alongside the National 
Football League, General Electric Company, and Under Armour to 
support an open innovation prize in search of advanced 
materials to better absorb or dissipate energy. The Head Health 
Challenge will lead to the improvement in performance of 
protective equipment, like helmets, to help and protect head 
safety for men and women in uniform; Americans who work in 
manufacturing, construction, and other industries; and those 
who participate in athletics, starting with children who 
participate in school sports. We have heard so much recently 
about the long-lasting impact of head injuries, how it might be 
connected to Alzheimer's and others. This is really exciting 
work that's going on.
    This kind of partnership is particularly encouraging 
because we should be doing everything in our power to help 
protect the lives of those who put themselves on the line for 
our freedom and safety as well as American workers and, of 
course, our children in those ever-present sports that we know 
are wonderful for them but we want them to perform in them 
safely.
    By investing in materials science research, we invest in 
both innovation and the livelihood of our citizens.
    Manufacturing is another critical sector where material 
science innovation can help create efficiency in production. 
While scientists develop new materials in our national labs and 
universities, industry applies these new materials to improve 
manufacturing, and create new products that keep the United 
States competitive in the global economy.
    As Chair of the Research and Technology Subcommittee, I am 
interested in learning more about NIST's work with 
manufacturers and other private industry partners on new 
materials testing and standards, as well as the National 
Science Foundation's investment in basic research at 
institutions like Rice University.
    Taxpayer investment in basic and fundamental research, 
which the private sector can then develop and commercialize, 
provides significant rewards that improve our society and the 
lives of our citizens. We must ensure that this research 
ecosystem is a vibrant, functioning partnership to spur 
innovation and create new industries and, of course, more jobs.
    Thank you to our expert witnesses for being here today, and 
I look forward to hearing your informative testimony.
    [The prepared statement of Mrs. Comstock follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    Chairman Weber. Thank you, Mrs. Comstock, and I recognize 
the Ranking Member of the Subcommittee on Research and 
Technology, Mr. Daniel Lipinski, for his opening statement.
    Mr. Lipinski. Thank you, Chairman Weber and Chairwoman 
Comstock, for holding this hearing on federal investments in 
materials science research and the economic importance of these 
programs.
    Materials science and engineering R&D is carried out across 
several federal agencies. This research, as we will hear more 
about this morning, has applications across many sectors, 
including energy, defense, transportation, and even human 
welfare, as Chairwoman Comstock mentioned, the better helmets 
that can be made to prevent traumatic brain injury.
    Unfortunately, as the Office of Science and Technology 
Policy detailed in a 2011 paper, the time it takes to move a 
newly discovered advanced material from the lab to the 
marketplace remains much too long. That white paper was the 
genesis of the multiagency Materials Genome Initiative, or MGI. 
The MGI is a public-private R&D partnership that seeks to 
accelerate the lab-to-market timeline through advances in 
computational techniques, more effective use of standards, and 
enhanced data management.
    The Research and Technology Subcommittee, on which I serve 
as Ranking Member, focuses on NSF and NIST, so I want to spend 
a moment talking about the important materials research 
programs at those agencies. NSF participates in the MGI 
primarily through the Designing Materials to Revolutionize and 
Engineer our Future program. This program is building the 
fundamental knowledge base needed to increase the precision of 
new materials development, enabling a shift from trial and 
error to designing and producing materials with specific 
desired properties. NSF also contributes to MGI through the 
Cyber-Enabled Materials, Manufacturing, and Smart Systems 
Initiative. As part of this initiative, NSF launched the 
Materials Innovation Platforms program to develop 
transformative techniques and instrumentation that will improve 
understanding and discovery of new, complex material systems.
    NIST scientists conduct research in all aspects of 
materials science, with the goal of developing better and new 
measurement and characterization tools and standards for 
advanced materials. The agency's major efforts on material 
science research are supported by the Material Measurement 
Laboratory, the national reference laboratory for measurements 
in the chemical, biological, and material sciences. In addition 
to its internal research program, NIST also established the 
Advanced Materials Center of Excellence at Northwestern 
University, Argonne National Laboratory, and the University of 
Chicago, to facilitate the collaboration with leading research 
institutes and industry. The Center supports the goals of the 
Materials Genome Initiative by developing computational tools 
and databases to support materials discovery and production. 
Finally, NIST manages the interagency Manufacturing USA 
initiative, which includes several institutes focused on 
advanced materials. I look forward to learning more about all 
of this work from Dr. Locascio.
    I want to echo the comments of my fellow Ranking Member, 
Mr. Veasey, by expressing my concern about the Trump 
Administration's proposed budget cuts to materials R&D across 
the science agencies. Not only would these cuts cause us to 
lose out on the economic opportunities our materials research 
programs create. They would also do great harm to our nation's 
ability to stay at the cutting edge of materials science and 
the related health, energy storage, technology, and national 
security benefits that will be discussed today.
    We have an excellent panel before us that can help us 
understand not only materials science itself, but also why our 
investments in this field are so important for the nation. The 
proposed 11 percent cut at NSF, the 13 percent cut to the labs 
at NIST, and the even more draconian cuts at DOE must not be 
enacted. Today's hearing will give us a few more reasons why we 
must reject the President's budget request if our nation is to 
stay scientifically and economically competitive, and I 
certainly appreciate Chairman Weber's comments about that 
budget and what Congress will do. Hopefully we will see robust 
funding for these programs.
    So I look forward to the testimony and discussion this 
morning, and I thank the panelists for being here to share 
their expertise with us.
    With that, I yield back.
    [The prepared statement of Mr. Lipinski follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Weber. I thank the gentleman.
    It is now time for witness introductions, and I'm going to 
yield right back to Mr. Lipinski to introduce our first witness 
today.
    Mr. Lipinski. Thank you, Mr. Chairman.
    Dr. Matthew Tirrell is Deputy Laboratory Director for 
Science and Chief Research Officer at Argonne National 
Laboratory in my district. At Argonne, he is responsible for 
integrating the laboratory's research and development efforts 
in science and technology capabilities. He is also the Founding 
Director of the Institute for Molecular Engineering at the 
University of Chicago, which has a mission to translate 
advances in basic physics, chemistry, biology, and computation 
into tools to address important societal problems. The 
Institute recently partnered with Argonne and Fermi National 
Labs to create the Chicago Quantum Exchange, which aims to 
serve as an intellectual hub for the science and engineering of 
quantum information and to commercialize discoveries through 
the Polsky Center for Entrepreneurship at the University of 
Chicago.
    Dr. Tirrell received his achelor's degree from Northwestern 
University, just as I did, in engineering, and his Ph.D. from 
University of Massachusetts-Amherst. His distinguished career 
has included faculty positions at the University of Minnesota, 
the University of California-Santa Barbara, University of 
California-Berkeley, and induction into the National Academy of 
Engineering and the American Academy of Arts and Sciences.
    Welcome, Dr. Tirrell. We're happy to have him here today.
    Chairman Weber. Thank you, Mr. Lipinski.
    Our second witness today is Dr. Laurie Locascio--is that 
right? Okay--Acting Associate Director for Laboratory Programs 
and Director for the Material Measurement Laboratory at the 
National Institute of Standards and Technology. Previously, Dr. 
Locascio served as Chief of the Biochemical Division in the 
Material Measurement Laboratory. She received a Bachelor's of 
Science degree in chemistry from James Madison University, a 
master's of science degree in bioengineering from the 
University of Utah, and a Ph.D. in toxicology from the 
University of Maryland at Baltimore. Welcome.
    Our next witness is Dr. Adam Schwartz, Director at Ames 
Laboratory. He is also a Professor of Materials Science and 
Engineering in the College of Engineering at Iowa State 
University. Dr. Schwartz had over 20 years of materials science 
research and management experience at Lawrence Livermore 
National Laboratory prior to joining Ames Laboratory. He 
received a bachelor's degree and master's degree in 
metallurgical engineering as well as a Ph.D. in materials 
science and engineering from the University of Pittsburgh. 
Welcome.
    Our last witness is Dr. Fred Higgs, a John and Ann Doerr 
Professional of Mechanical Engineering at Rice University, 
where my sister graduated from. Previously, he was a 
postdoctoral research fellow at Georgia Institute of 
Technology. Dr. Higgs received a B.S. in mechanical 
engineering, an M.S. in mechanical engineering, and a Ph.D. in 
mechanical engineering--you have a thing for mechanical 
engineering--from--pronounce that.
    Dr. Higgs. Rensselaer.
    Chairman Weber. Rensselaer Polytech Institute in Troy, New 
York, but you finally made it to Texas. So I told him he's a 
native Texan imported from Florida. So welcome. We're glad you 
here.
    And Dr. Tirrell, I now recognize you for five minutes to 
present your testimony, and welcome to you as well.

               TESTIMONY OF DR. MATTHEW TIRRELL,

             DEPUTY LABORATORY DIRECTOR FOR SCIENCE

                  AND CHIEF RESEARCH OFFICER,

                  ARGONNE NATIONAL LABORATORY

    Dr. Tirrell. Thank you. Chairman Weber, Chairwoman 
Comstock, Ranking Member Veasey, and Ranking Member Lipinski 
and Members of the Subcommittees, thank you for the opportunity 
to appear today to discuss the future of materials science from 
the perspective of the U.S. Department of Energy National 
Laboratories.
    Argonne National Lab was founded as a chemistry, materials, 
and nuclear engineering lab in 1946 as the successor to the 
Manhattan Project's metallurgical lab at the University of 
Chicago. My colleagues at Argonne and across the national 
laboratories seem to improve the way this nation generates, 
distributes and uses energy. Materials science and engineering 
are essential to this pursuit and to many other sectors of 
importance to society. Bringing fundamental advances in 
material sciences to reality for the ultimate benefit of 
society requires investments at various stages of development.
    Though the time scale is accelerating via powerful new 
predictive computational methods, many developed at DOE 
laboratories, there remains a long lead time from conception, 
discovery and synthesis of new materials to their ultimate 
useful application. Indeed, important discoveries in materials 
science arise often without any application in mind. National 
laboratories differ from universities in performing both basic 
and applied research in an environment where unmatched 
characterization facilities and capabilities for scale-up 
exist.
    The process of taking a fundamental discovery or invention 
to the point that industry will invest in commercial 
development is a very non-linear one involving iteration 
between fundamental and applied research. Pushing basic science 
toward practical applications frequently raises new basic 
science questions that have to be addressed before useful 
results emerge.
    The history of electrochemical research at Argonne leading 
to new materials and devices for energy storage is a case in 
point. Electrochemical energy storage and research--storage 
research and development spans the battery field from basic 
materials research all the way to prototyping.
    The prototyping often reveals the need for new insight at 
the fundamental level and inspires new basic research. A 
specific example is the Energy Innovation Hub at Argonne, the 
Joint Center for Enter Storage Research, or JCESR. Founded in 
2012, JCESR has united government, academic and industrial 
researchers from many disciplines in a major research project 
that combines discovery science, battery design, prototyping, 
and manufacturing science in a single highly interactive 
organization. JCESR as an example of collaborative basic 
research leading to proof of concept prototypes is one we aim 
to model in other materials research areas.
    A second powerful example is in the area of quantum 
computing. The exponential expansion and the power of 
information technology, which we call Moore's Law, has 
catalyzed U.S. productivity and growth for over the last 50 
years but, like much of our nation's aging infrastructure, this 
is now ending as roadmaps that have worked since the 1960s are 
now reaching their limits. The research and industrial 
communities are mobilizing to search for fundamentally new 
approaches to information processing. Quantum computing is 
based on exploiting subtle aspects of quantum physics for 
unprecedented new information technologies. These technologies 
implemented via materials design and development can handle 
computationally complex problems, provide communications 
security, sensing technologies in ways that are impossible with 
conventional hardware.
    Recognizing this promise, other nations such as China, 
Canada and several European countries are investing heavily in 
quantum material science. Argonne in collaboration with the 
University of Chicago and Fermilab, and I might add, Ames Lab 
and NIST, are poised to compete and lead in this area.
    Water research is a third example where basic materials 
science is needed. Water and energy are deeply interrelated. 
Cooling in power plants, hydraulic fracturing, petroleum 
refining, biofuel production account for the majority of water 
withdrawals and, conversely, water treatment and distribution 
represents large consumers of electricity. This water-energy 
interdependence is leading materials scientists to work on 
devising new membranes, sorbents, sensors, catalysts and 
surface treatments to enable step change in improvements in 
energy-water systems.
    Across the lab complex, the commitment to materials science 
breakthrough means using every specialized tool at hand. At 
Argonne, we leverage the high-energy x-rays of the advanced 
photon source to see materials at the atomic level and the 
computing power of the Leadership Computing Facility for 
Materials Characterization and Simulation. Upgrades underway at 
each of these facilities will serve to increase their power.
    So in summary, DOE labs are an enormous asset in pursuing 
the broad spectrum of materials science and engineering 
research.
    Thank you for your time and attention to this topic, and of 
course will answer any questions you may have.
    [The prepared statement of Dr. Tirrell follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
      
    Chairman Weber. Thank you, Dr. Tirrell.
    Dr. Locascio, you're recognized for five minutes.

               TESTIMONY OF DR. LAURIE LOCASCIO,

                   ACTING ASSOCIATE DIRECTOR

             FOR LABORATORY PROGRAMS AND DIRECTOR,

                MATERIAL MEASUREMENT LABORATORY,

         NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    Dr. Locascio. Thank you. Chairman Weber, Chairwoman 
Comstock, Ranking Members Lipinski and Veasey, and Members of 
the Committees, thank you for the opportunity to discuss NIST's 
role in enabling advances in materials that strengthen U.S. 
innovation and industrial competitiveness.
    NIST has helped entire industries overcome intractable 
challenges by measuring materials with ever-increasing 
precision and characterizing new materials for the very first 
time. We help American manufacturers be more competitive by 
enabling development and testing of materials that perform far 
better than previous generations.
    Great leaps in our quality of life are linked to great 
links in the performance of materials. For example, prosthetics 
and medical implants, once limited to ceramic and steel and 
harvested bone, are now made from titanium and polymers and 
composites. They are stronger, lighter and more functional, 
helping more people return to work and live active lives.
    NIST has been an essential partner to industry in 
supporting the traditional approach to materials discovery. For 
example, we have helped the U.S. semiconductor industry, which 
generates $166 billion in global sales, overcome measurement 
and material limits to making the smaller, faster chips that 
the market demands. But traditional materials discovery 
requires costly trial-and-error cycles. In a new paradigm, NIST 
supports the use of data and models to simulate materials and 
predict their performance before spending the money to make 
them. This approach is called materials by design. GE used 
materials by design to make new alloys for jet engines in nine 
years instead of the typical 15 to 20, and the metal in Apple 
watches was developed and deployed to market in just two years 
using this approach.
    Materials by design is such a game changer that it became a 
national priority in 2011 with the Materials Genome Initiative. 
The MGI, as it is known, benefits nearly all economic sectors 
from the chemical industry to electronics, communications, and 
biotechnology. The MGI is a partnership among 18 federal 
agencies, including some in the Department of Energy and 
Defense, along with NASA and NIST.
    NIST supports the MGI with new modeling and experimental 
capabilities, along with materials data. For example, the 
Materials Resource Registry is like an online Yellow Pages for 
materials by design, enabling in-depth, worldwide searches of 
data collections, computational services, and modeling 
software. In this registry, we collect and harvest public data 
from materials science programs in universities, industries, 
and government to create a valuable national resource, and with 
access to all this shared data, researchers can more quickly 
design unique materials for the next great American 
breakthrough.
    To help create an ecosystem for MGI, NIST founded the 
Center for Hierarchal Materials Design, or ChiMaD, a consortium 
led by Northwestern University, the University of Chicago, and 
Argonne National Lab. ChiMaD and NIST together are building 
tools to support the MGI nationally while advancing 
technologies that the institute cares about, like 2D 
electronics and more efficient jet engines. Thanks to the 
support of Congress, materials by design is gaining ground 
across the entire U.S. materials science enterprise.
    Why is an agency like NIST doing this work? We see 
ourselves as industry's national lab, a well-respected, 
trusted, non-regulatory scientific agency that forms strong 
partnerships with industry to tackle critical national needs. 
Other countries are investing in their own MGI-like 
initiatives. The U.S. faces ever-increasing competition in this 
space. We are still the ones to beat, but we need continued 
coordination and support among all the players across many 
sectors to retain this lead.
    We greatly appreciate the Members of these Committees and 
others in Congress for the support of federal acceleration of 
the innovations in materials science that keep our nation 
globally competitive and secure and contribute to our quality 
of life.
    I will be pleased to answer any questions you may have. 
Thank you.
    [The prepared statement of Dr. Locascio follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Weber. Thank you, Doctor.
    Dr. Schwartz, you're recognized for five minutes.

                TESTIMONY OF DR. ADAM SCHWARTZ,

                   DIRECTOR, AMES LABORATORY

    Dr. Schwartz. Good morning. Chairman Weber, Chairwoman 
Comstock, Ranking Members Veasey and Lipinski, and Members of 
the Committee, thank you for the opportunity to testify at this 
hearing, and thank you for your continued strong support of 
materials research.
    The United States is the world leader in materials science, 
condensed-matter physics, and chemistry research. Federally 
funded research has created an innovation system unmatched 
anywhere including the private sector. Our leadership is due in 
large part to governmental science funding across the continuum 
from grand challenge and use-inspired basic research to applied 
research and technology deployment. As a country, we've reaped 
tremendous benefits in the economics, energy security, national 
security, and our quality of living. The United States leads in 
discovering and applying materials with novel properties.
    New materials discoveries enabled by basic research at our 
national laboratories and universities have significant 
economic and societal impacts on our everyday lives. Consider 
your smart phone, tablet or almost any other consumer 
electronic device. Ames National Laboratory and Sandi National 
Laboratories collaborated to create a lead-free, 
environmentally friendly replacement for lead-based solder. 
This advanced alloy was ultimately licensed to over 65 
companies in 23 countries with an economic benefit to the 
private sector estimated at $610 million per year.
    New and experimental--new experimental and computational 
capabilities developed from sustained federal investment in a 
talented and dedicated scientific workforce have accelerated 
the pace of discovery of novel materials. We can now design and 
create materials tailored for some specific purposes and soon 
will be able to do so much more broadly if appropriate research 
continues.
    Great opportunities abound for new materials to impact our 
world. LED lighting transformed a century-old light bulb 
industry that hadn't advanced since Edison. Research to replace 
the current 100-year-old compressed-vapor refrigeration with 
solid-state magnetic technologies enabled by new materials 
could potentially reduce our energy consumption by one-quarter 
and have transformative impacts.
    An amazing opportunity also exists in information 
technology. For decades in the computer industry, the density, 
speed and computational power of integrated circuits have 
increased exponentially over time as predicted by Moore's Law 
but we're fasting approaching the theoretical limits of 
processor materials. To go beyond Moore Computing, research is 
needed to create new quantum materials that use less energy and 
provide computing power beyond today's approaches with 
conventional silicon chips.
    Tremendous opportunities exist in additive manufacturing, 
or 3D printing of metals to fabricate parts for the military, 
biomedical, and aerospace industries. Currently, progress is 
constrained by a lack of fundamental understanding and control 
of kinetic processes as well as a lack of suitable metal 
powders. Collaborations between Ames and other laboratories are 
pooling their expertise to meet these needs, establishing U.S. 
leadership in a fast-growing industry.
    The biggest challenge facing U.S. materials research right 
now is maintaining our global competitive edge. The rest of the 
world is catching up. Countries like China, South Korea and 
India are investing increasing percentages of their GDP in 
materials research and our global competitive advantage in this 
key enabling science is under threat. Will the United States be 
the first to invent the next catalyst and in a $30 billion 
petrochemical industry, discover the material that will replace 
traditional semiconductors in the $350 billion electronics 
industry, or provide options for the next critical material on 
which our military systems depend? The private sector cannot do 
this by itself.
    Federally funded research enables world-changing materials 
advances like the ability to address critical material 
shortages through the basic research provided by the Critical 
Materials Institute and the ability to design and create new 
materials to revolutionize the electronics, lighting, 
refrigeration and air conditioning industries, among many other 
manufacturing sectors. The key to future success is sustained 
research on fundamental principles and the resulting discovery 
of advanced materials.
    Ames Laboratory, like other national laboratories and 
research universities, is on the cusp of great materials 
discoveries that will further the nation's economic, energy and 
national security interests but we need your continued support 
and resources to meet our mission.
    Thank you for the opportunity to testify today, and again, 
thank you for your consistent support of materials research. 
This Committee's leadership has paved the way for remarkable 
innovations. I'd be happy to address any questions or provide 
additional information.
    [The prepared statement of Mr. Schwartz follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Chairman Weber. Thank you, Dr. Schwartz.
    Dr. Higgs, I recognize you for five minutes.

                  TESTIMONY OF DR. FRED HIGGS,

                  JOHN AND ANN DOERR PROFESSOR

                   OF MECHANICAL ENGINEERING,

                        RICE UNIVERSITY

    Dr. Higgs. Chairman Weber, Chairwoman Comstock, Ranking 
Members Veasey and Lipinski, and other Committee Members, I 
appreciate the opportunity to testify before the Subcommittees. 
As the John and Ann Doerr Professor of Mechanical Engineering 
and the Faculty Director for the Rice Center for Engineering 
Leadership at Rice University, I am excited about this 
opportunity to provide this testimony today.
    Today I'm here to discuss the broad economic impact of 
materials science on the nation and the need for America to 
invest big in basic science in this area and other fields of 
engineering, which are catapulted forward by materials 
advances.
    Whenever you see a new flurry of research activity or new 
radically high-performing technologies, this is almost always 
related to some type of material advancing or technology 
deployment that finally figured out how to use a cutting-edge 
material which was discovered by basic science research no less 
than a decade ago.
    Today I'll discuss new material advancements, science 
competitions, and industry lab partnerships.
    New materials can improve the safety and environmental 
impact of energy production technologies. In terms of oil and 
gas drilling, the development of effective, environmentally 
friendly additives and drilling mud may enable more efficient 
cooling, lubrication and rock cutting removal from the drill-
rock interface. More efficient and environmentally safe 
extraction processes allow workers to have less exposure to 
dangerous activities as well. Material advancements can reduce 
the impact that energy production processes such as coal and 
natural gas combustion have on our environment.
    There are also technological benefits of material 
advancements in orthopedic medicine. Advanced coating such as 
nanocrystalline diamond are very robust and compatible with the 
human body.
    There are technological benefits of material advancements 
in transportation. Tire rolling, resistance and high traction 
compete to hinder fuel performance. Basic science involving 
nanomaterials are expected to improve tire performance and are 
expected to save maybe $35 million barrels of oil annually.
    There are technological benefits of material advancements 
in manufacturing, particularly additive manufacturing, which 
most here may know as 3D printing, as you heard my predecessor 
say. More advanced innovations such as composite materials and 
greater materials remain underdeveloped. 3D printers are also 
super slow and cannot speed up until fundamental material 
science questions are answered.
    I would like to address another point: crowdsourced-based 
science prize competitions. One of the new successful 
strategies for inspiring open innovation and accomplishing idea 
mining is science prize competitions. While these can be 
exciting, as my team has competed in them, the potential loss 
of university IP can in some cases be in danger when the fine 
print of such competitions re by entering this competition, we 
can use your ideas without permission whether you win or lose. 
Normally those are industry-based competitions. The Committee 
should employ careful oversight of the non-defense agencies' 
ability to initiate competitions that university researchers 
perceive as exploitive.
    In terms of the merits of university-lab partnerships, 
government labs serve many noble purposes for our nation from 
an academic viewpoint. First, they provide our government with 
research capacity and the personnel and equipment 
infrastructure to tackle the nation's most pressing problems. 
Second, they provide a rich research ecosystem of researchers 
who care about the science of discovery divorced from the 
pressures of generating quarterly profits, and third, they 
provide collaborative resources in terms of intellectual 
capital, equipment and mentorship for young researchers. I work 
with different agencies and labs such as NASA Glenn and NETL. I 
can honestly say that just like many of my other colleagues who 
work with government labs, their support of our research has 
been pivotal in helping people like me mature from a young 
professor into a leader in my field. Federal labs have even 
provided guidance to startup companies such as my own NSF-
funded SBIR company, InnovAlgae. DOE labs such as Inrel have 
advised us of the best path toward technology validation 
including connecting us to industrial partners that could 
benefit commercialization efforts.
    There are also merits in university-company partnerships. A 
seasoned researcher at a Fortune 500 company once said to me 
universities use money to create knowledge but companies use 
knowledge to generate money, but these days, many companies are 
desperately looking for Ph.D.'s to hire from universities and 
yet they spend no money supporting university research. A 
perfect storm is being set up where companies expect Ph.D.'s to 
just magically be output without anyone making an investment 
input. Meanwhile, other countries in Asia and Europe are 
strategic, creating a Ph.D. investment training and hiring 
cycle that has catapulting their nations over America, the 
country I so dearly love. It would be a game changer if 
companies tax-incentivized to invest seed money into 
university-based research.
    And I leave you with the final recommendation for 
supporting basic research. If Congress were to inject new funds 
into NSF to increase the number of graduate fellowships from 
just a factor of two from 2,000 to 4,000, it would be a big 
game changer in terms of supporting basic research. Thank you.
    [The prepared statement of Dr. Higgs follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. Thank you, Dr. Higgs. The Chair now 
recognizes himself for five minutes.
    Dr. Tirrell, your written testimony touches on an important 
quality of the national labs: the core capabilities and user 
facilities that allow a single researcher to use a number of 
tools at a single lab to make a scientific discovery. What 
steps could the department take to better streamline access for 
those researchers across the lab complex?
    Dr. Tirrell. Thank you. Well, I think we at Argonne have 
several major research facilities, as you alluded to, in x-ray 
scattering and in computation, also the Center for Nanoscale 
Materials. What is really important is the staff scientists 
that staff those facilities because users often come with an 
idea of how to--of what they want to do but not necessarily how 
to do it with our facilities. So we need experts on site really 
to try to make the time that they have on the instrument which 
sometimes is 24 hours, and it can go from, you know, straight 
24 hours the most effective. So you can get there, get in and 
get out with the results that you need. But that requires 
dedicated and really knowledgeable staff. I think that might be 
the principal thing that I would suggest.
    Chairman Weber. Okay. So we have to schedule facility 
upgrades like the Advanced Photon Source. How important are 
those upgrades for providing the tools needed for the materials 
research community?
    Dr. Tirrell. There's nothing more important than the 
upgrade to the Advanced Photon Source, both for Argonne or for 
the x-ray scattering community in the United States. It's 
really the only state-of-the-art hard x-ray, meaning high-
energy x-ray, facility in the United States that can do certain 
things, and many other countries are investing but what we need 
is a facility that U.S. scientists can access most effectively.
    Chairman Weber. Do you know where we are on that scheduled 
timeline?
    Dr. Tirrell. Well, a lot of that depends upon the rate of 
funding. Right now, we would have, I believe--I hope I don't 
misstate it but roughly dark time, meaning that the equipment 
would be installed--the new equipment would be installed in 
fiscal 2020 and then come up for operation later in fiscal 
2023. If the funding that's proposed now is maintained, this 
could be delayed by a year or more, so that's the kind of time 
scale that we're talking about, and the implications of the 
funding profile.
    Chairman Weber. Okay. Thank you.
    Dr. Schwartz, this question is for you. In your prepared 
testimony, you talked about a project currently underway at 
Ames Lab using caloric materials to improve the efficiency of 
heating and air conditioning and refrigeration. Could you 
describe what these materials are and how they may change the 
industry for us?
    Dr. Schwartz. Okay. I'll try and make this relatively quick 
and simple. Caloric materials are a type of material that when 
you apply a field, a magnetic field, an electric field or a 
stress field, there is an internal change in the structure that 
creates a significant temperature change. So now you can 
imagine having a closed system where you have a warm fluid 
coming in, you have your magnetocaloric material, for example. 
You apply a field. It changes the temperature. It cools that 
fluid coming by and you have a refrigeration system. It won't 
use greenhouse gases. It will be environmentally friendly, and 
if constructed with affordable, Earth-abundant, easily 
manufacturable materials, it could potentially transform the 
refrigeration and air conditioning industry.
    Chairman Weber. How do you move that fluid? You know, you 
use a compressor to remove refrigerant that change the state 
twice in the typical refrigeration system, so how are you 
moving that fluid?
    Dr. Schwartz. I think that would be the same way. You'd 
have a pumping system that would either bring in the air or the 
liquid over top of the caloric material.
    Chairman Weber. So instead of a compressor that compresses 
refrigerant from a loosely packed gas into tightly packed 
liquid and diffuse it through a metering device and it sprays 
out and has a temperature drop, pressure drop and it picks up 
heat there, is there a metering device? I don't know how much 
work you all have done on this. This is fascinating to me. In 
fact, what time is it? We may be here for a day or two. So is 
there a metering device in this system? How do you get this 
corresponding temperature and pressure drop in that system?
    Dr. Schwartz. So our research is focused primarily on 
discovering new materials in order to enable this technology to 
go forward. And I'd like to point out that the first material 
of this type was really invented at Ames Laboratory about 20 
years ago. Research was funded through basic energy sciences as 
it had been for some time before that. After the discovery of 
this material, it wasn't long before industry said hey, we got 
this, were going to make something good out of it. As a result, 
basic energy science has said okay, industry's got it, that's 
out of our realm, we're not going to fund that anymore. Well, 
20 years has gone by and industry has not been able to pick up 
that technology because of the inability to do the basic 
materials research and enable that amazing new material 
technology to be implemented into something as impactful as 
revolutionizing the air conditioning and refrigeration 
industry.
    Chairman Weber. Well, the fact that it's 20 to 25 percent 
of energy consumption, as was pointed out, you know, is a 
pretty astounding figure, and we could go on for a long time, 
but I'm going to go ahead and--who am I yielding to? Marc has 
left, so I guess, Daniel, you're up next. The Chair recognizes 
you for five minutes.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I want to start out with Dr. Tirrell. Argonne is home to 
the Energy Innovation Hub called the Joint Center for Energy 
Storage Research, more commonly known as JCESR. It had great 
success since 2012, but the Trump budget proposes to eliminate 
it.
    So I wanted to ask you what would the consequences of 
eliminating this Energy Innovation Hub be, and would private 
sector be likely to pick up this work?
    Dr. Tirrell. Thank you. Well I think it would--the cutting 
of JCESR would leave a lot of very promising research results 
on the table without further development. There have been 
industry involved in JCESR, Johnson Controls, for example, 
which is the largest battery manufacturer. But again, it could 
be a situation such as Dr. Schwartz described where while the 
technology is promising, it's not really sufficiently developed 
that a company is able to take it over.
    Having said that, it's conceivable that there would be ways 
for the Office of Science to continue its investment in energy 
storage research at Argonne and elsewhere in the DOE complex. 
So we don't view it as a great thing that JCESR may be coming 
to an end, but I think that it has already produced a wealth of 
results that can be followed up on if additional investments 
are made.
    Mr. Lipinski. Well, we have to--I think we need to fight 
here in Congress to make sure that we don't defund these Energy 
Innovation Hubs for what they are doing, where they have gotten 
so far in the research and development.
    But I think that really leads me to my second question for 
Dr. Schwartz first and then Dr. Tirrell. There's this false 
boundary that's being claimed between basic research and 
applied research, and saying well the federal government--some 
will say the federal government should only be involved in 
basic research and not applied research. I don't think that 
there really is a neat divide here, and Dr. Schwartz, you 
mentioned in your testimony your concerns about so much that 
would not be done if the federal government just got out of the 
development part of the R&D research and development sphere.
    Can you tell me why that is and why the government needs to 
be involved in the development?
    Dr. Schwartz. There is a common view that research from 
grand challenge and basic science is just a continuum, and that 
once you start on that path of understanding, that that's going 
to take you to the logical conclusion that could ultimately be 
commercialized.
    In my experience, I have never seen anything like that. We 
make progress in one area that opens up new doors. We might 
explore that path and then have to come back, so there's the 
pipeline model of technology development that only applicable a 
few percent of the time. There's another model that shows more 
of a feedback loop where instead of having just one valley of 
death in the commercialization of a product, you actually have 
two. One is taking a look at the feasibility of the product or 
of the material, and of course, the second is the late stage, 
being able to scale up and commercialize it. It is not a linear 
path between discovery and implementation. Sometimes, like the 
case of the caloric materials that I just talked about, it 
looked like it was promising but no one had done the full 
development of the materials to make that feasible as a 
commercially available material.
    So the feedback loop happened. The material was discovered. 
Industry thought they were going to pick it up, were not able 
to or chose not to invest as much as they needed to to get that 
product available, and then now energy efficiency and renewable 
energy, through one of its recent energy materials networks, 
has picked up that research again to do the foundational 
science required to create the new materials that will enable 
this technology.
    Thank you for your question.
    Mr. Lipinski. Dr. Tirrell, anything briefly you want to 
add?
    Dr. Tirrell. Yes. Certainly I agree with the premise of 
your question and some of the things that Dr. Schwartz said. I 
used the terms iterative and cyclic and non-linear a couple of 
times in my own testimony.
    One thing I point to is the Office of Science Basic 
Research Needs workshops--there's brochures about them out in 
the hallway--where the Office of Science tries to define 
important basic research in quantum computing, in water, in 
synthesis, based on what's needed to carry these things forward 
into practical technology. So I think we all recognize this 
interplay between basic and applied research, even just as an 
intellectual thing in addition to its practical implications.
    Mr. Lipinski. Thank you. I yield back.
    Chairman Weber. Thank you, Dan, I appreciate that. And I do 
want to add, though, that we did--House did pass H.R. 589, the 
Energy Innovation Program, where all of those hubs are actually 
authorized, and unfortunately it's sitting over in the Senate 
and we just hope the Senate has enough energy to get something 
done. Did I say that out loud?
    I now recognize Barbara Comstock for five minutes.
    Mrs. Comstock. I don't have a Madonna quote. I'm 
speechless.
    Dr. Locascio, how does a prize competition like the Head 
Health Challenge promote the development of new materials, and 
what did NIST learn from participating in this prize challenge?
    Dr. Locascio. Thank you for the opportunity to speak about 
that. The prize challenge really is just one tool in our tool 
kit to leverage federal dollars against private sector dollars, 
and I think it's an extraordinarily effective way to do that, 
and also to pull in people into an important national problem 
that may not have been aware of or how to get involved. And so 
I think the prize challenge that we conducted with Head Health, 
it's a partnership between NFL and NIST and GE and Under 
Armour, has been very successful in attracting new people into 
the problem associated with public safety, and in particular, 
protective gear.
    For instance, we had people competing in the prize 
challenge who presented new materials that were additively 
manufactured or prepared in the laboratory that were responsive 
materials or new types of materials made with new processes 
that had never thought before about using them and harnessing 
that activity for protective gear.
    So I think one advantage is really being able to attract 
new people to these new national problems, and our role there 
is really to help conduct an unbiased and fair competition, and 
we were able to leverage testing equipment that we already had 
developed for the purpose of testing headgear for war fighters, 
and used that to conduct these tests. And in the same time, 
push forward our capabilities even further into new realms to 
test these types of materials.
    Mrs. Comstock. And how--and maybe some of the others can 
add to this, too. How can you--how can we develop more of those 
partnerships like that, because I think the synergy is there. 
The relationships really cross over so many different 
disciplines. It's really exciting. You're getting a lot of 
different partners who have a lot of different interests in 
this. So how can we build on that model and find some other 
areas, and what are some other examples that we might pursue in 
this area?
    Dr. Locascio. So I'll perhaps start and let others chime 
in, but we've learned a lot from NASA, who was conducting prize 
challenges about how to leverage the external community and 
attract them into these types of prizes.
    This was the first one that NIST had conducted and the 
first one the Department of Commerce had conducted, and we've 
gotten so much out of it that we currently have several others 
in the pipeline, current prize challenges that are being 
awarded soon.
    Dr. Higgs. So I've been actually--I've been on the side 
that actually is the competitors for these different 
challenges, and I do admit that when these challenges come out, 
my students and I, you know, all want to be competitors in some 
sense, maybe athletes or something, and we see that as our 
opportunity as researchers to compete, and we always think 
we're going to win, of course. But these, you know, 
competitions have a really good basis for being able to 
generate ideas and things, and we love it when the government 
labs are involved with doing these as well.
    Certainly, we would just caution that, you know, sometimes 
when industry is involved with these competitions, they--I've 
been with several colleagues and you write a proposal and at 
the end of it, it will say any idea that you submit, we can 
actually take. You're giving up your rights to that particular 
situation. So I would just say make sure there's oversight, 
certainly, when there's industry there, because we don't want 
an awesome idea to be used as a way to backdoor and take IP 
from universities that could generate revenues to do other 
important things with basic science.
    So love the competitions, but we'll just say some oversight 
when the industry is involved, making sure that IP is not given 
up in the wrong way.
    Mrs. Comstock. Thank you. Thank you, and I yield back, Mr. 
Chairman.
    Chairman Weber. Thank the gentlelady, and Mr. Veasey, you 
are now recognized.
    Mr. Veasey. Thank you, Mr. Chairman. This question is for 
Dr. Schwartz.
    Dr. Schwartz, in the fiscal year 2018 budget proposal, Ames 
Laboratory did not fare well. If this budget were enacted, it 
looks like your capabilities and scientific workforce would be 
decimated. I was wondering if you could lay out the 
consequences of this budget proposal for Ames Laboratory, and 
if enacted, do you have an estimate for how this would impact 
your workforce?
    Dr. Schwartz. Thank you for your question. The proposed 
budget that I've seen for Ames Laboratory proposes a 58 percent 
decrease in the budget between the fiscal year 2018 request and 
the fiscal year 2016 enacted. Clearly, a 58 percent decrease in 
the overall budget is going to have an impact on our staff, and 
it is also going to have an impact on our ability to meet our 
mission to create materials and energy solutions.
    Mr. Veasey. How would this budget proposal impact materials 
research at Ames and, you know, largely how would it affect it 
in the U.S. as well?
    Dr. Schwartz. The work that is going on at Ames Laboratory, 
other national laboratories, universities, NIST is successful 
because of the long-term sustained federal investment. Science 
is something that progresses continuously, sometimes quickly. 
More often, not so quickly. Interruptions to that flow of 
science would be significant. Decreases in scientific staffs at 
the national laboratories certainly slows down projects, if not 
stops them. It makes it more difficult to pick it up.
    In addition, the potential decrease in funding in the 
materials areas sends a message to high school students, 
college students, early career researchers at universities, and 
assistant professors, and I'm not sure that's a message that we 
want to send. Materials research has been demonstrated to 
provide economic value, energy security value, national 
security value. I would like to see that progress continue at a 
rapid pace.
    Mr. Veasey. This is sort of regarding the first question 
I'd asked you about your workforce. Could you be specific about 
exactly how many people would be laid off or what numbers your 
workforce would be reduced with these budget cuts?
    Dr. Schwartz. We have done an estimate based on that 58 
percent decrease from the '18 proposed to the '16 enacted 
budget, and assuming that we do not use funds that are carried 
over from existing what we have now, we're looking at a 
decrease in the overall staff approaching 40 percent.
    Mr. Veasey. Thank you very much.
    This message is for Dr. Tirrell. I know that the drastic 
cuts proposed to the budget would have major consequences for 
our Argonne National Laboratory. I was wondering if you could 
also walk us through the impacts that this budget proposal 
would have on the capabilities and workforce of Argonne if it 
were enacted.
    Dr. Tirrell. Yes. Obviously if those cuts are enacted, the 
capabilities in the spirit of Chairman Weber's question about 
how we could staff user facilities may be affected. Cuts will 
affect our capabilities and workforce. Partly as a measure to 
protect morale, we haven't made public statements of, you know, 
exact estimates because we don't know for sure what's going to 
happen. There was a, you know, a business newspaper in Chicago 
that suggested that the cuts would be something like 700 
combined across Argonne and Fermi lab, but that's an 
independent estimate that we are not part of. But clearly, it 
will impact our capabilities and workforce.
    And you know, a thing that's important to recognize, and 
it's true of national labs, university labs, and industrial 
labs, they're much easier to tear down than they are to build 
back up after that, so it's an important step to think about.
    Mr. Veasey. And also I wanted to just ask you specifically 
about your portfolio of material research at Argonne. Can you 
just very quickly say how that would be impacted?
    Dr. Tirrell. Well as I mentioned in my own testimony, we do 
span in several areas such as energy storage from electro 
chemistry to battery prototypes. As I understand, the budget 
proposal would be hit more heavily on the applied end of that, 
so how well we could get things to the point that the 
commercial implementation, I think, would be the place where 
the pressure would be applied by these budget cuts.
    Mr. Veasey. Thank you, Dr. Tirrell.
    Mr. Chairman, I yield back my balance of the time.
    Chairman Weber. All right, thank you, Mr. Veasey. We now 
recognize Mr. Dunn for five minutes.
    Mr. Dunn. Thank you, Chairman Weber. Good morning to the 
panel. My name is Neal Dunn. I'm a medical doctor recently 
turned Congressman from Florida, so the chance to listen to so 
many great scientists is a real pleasure for me. This is my 
only dose of science I get, really, up here in Washington, so 
thank you very much.
    In our district, we have Florida State University, one of 
the preeminent research universities in the country. We have a 
new material science and engineering program there that is 
rather large, but perhaps most famously includes the National 
High Field Magnetic Lab. I suspect maybe you collaborated with 
them from time to time, and I'd like you to keep that in mind 
as I make the comments and ask my questions.
    I'd like to start with Dr. Higgs. First, Dr. Higgs, I want 
to encourage you to think of your sojourn in Texas as 
temporary. I know that----
    Chairman Weber. The gentleman's time has expired.
    Mr. Dunn. The sugar white sands are calling to you even as 
we speak.
    You actually said something very important, especially in 
this time of compressed budgets, and it was about the 
university IP. So historically, I think universities, as you 
say, they turn money into knowledge and they may spend $100 
million in a year and then on royalties they'll get $1 million 
back. Well that's a very poor return on investment. I think we 
all recognize that. Now there's many universities, I'm sure 
some of the leading ones that you deal with have adopted newer 
techniques, but it's important, I think, that we push this out 
into the labs as well, these partnerships, because you're 
right. Your faculty and your post-grad students take with them 
IP into the private sector, and they try to monetize that. And 
I think we can keep them in the faculty, keep them in the 
labs--your labs if we share the IP, the ownership of the IP in 
a more intelligent fashion. I think you're doing that. Am I 
right? Answer that, Dr. Higgs. It sounded like you have some 
familiarity with how to parcel out the IP--the rights of the IP 
so that you kept the talent and the ideas still got to market.
    Dr. Higgs. Right, good question.
    So first of all, I want to say I'm originally from 
Tallahassee, Florida, so your district, and I did participate 
in pre-college engineering programs that motivated me to pursue 
a Ph.D. in mechanical engineering. It was at the Florida State 
University and Florida A&M University, minority introduction to 
engineering.
    Mr. Dunn. Come on back. The water's fine.
    Dr. Higgs. Right. It was at this program where I had the 
sophistication to realize that a terminal degree was the way to 
go, so I thank your district for supporting young dreamers like 
me.
    Certainly we, you know, we have a responsibility to our 
employer, the university, that whenever we generate an idea 
that the idea belongs to them because of the Bair-Dole Act, 
and--but we are really most interested in working in basic 
science. But we're in a capitalistic society, so these things 
have to be funded. And you're right, some companies fund us and 
we do the research. The companies will ultimately get our 
students there. The IP that's in the university, the whole goal 
of it is to actually get into the market to help----
    Mr. Dunn. Chairman Weber is going to cut us off quickly, so 
I'm going to say that I encourage all of you to think of it as 
public-private partnerships and really help--that helps 
monetize your lab--monetize the ideas, but also keep the people 
in your lab where you want them.
    Dr. Schwartz, regarding your caloric material on 
refrigeration. You have a cooling source we have in Tallahassee 
a company that manufactures a frictionless bearing. It's a 
magnetic bearing, no lubrication, and they turn in 20, 25 
percent savings on industrial HVAC units. I think, you know, 
we've got a marriage here. I'm playing matchmaker. So I think 
you've got--you put those two things together. Somebody removed 
the fluid or the air in Tallahassee. In fact, my staff will no 
doubt share with you the name of that company so that you can 
work with them.
    In the 30 seconds remaining to me, Dr. Locascio, how do you 
define success when you're looking at grant applications? What 
makes you find a great grant?
    Dr. Locascio. So we go through a peer review process for 
all of our grants. It's a very well-structured process, and 
it's pretty common across----
    Mr. Dunn. There's no hook right now? You're in a low 
monetary budget kind of finance. What do you do? What are you 
looking for?
    Dr. Locascio. Oh, how are we pursuing grants? Are we going 
to continue to pursue grants?
    Mr. Dunn. Well, our time expired, but--and I've already 
tested the Chairman's patience, so----
    Chairman Weber. No, go ahead. I'm interested in her answer.
    Dr. Locascio. So we will continue to put out grants to 
universities. Obviously, we've had very hard decisions to make 
as well with regard to the budget, but one of the things that 
we've thought about is really protecting the future. And 
protecting the future means also protecting our abilities to do 
the greatest advances in measurement science that you can 
possibly do. And that honestly requires the universities. We 
have to collaborate with the smartest minds in the United 
States and pair them with the smartest minds in the federal 
government, and we do that to great benefit. So we'll continue 
to put out grants.
    Mr. Dunn. Thank you very much. Thank you, Mr. Chairman.
    Chairman Weber. You bet.
    The Chair now recognizes Mr. Foster for five minutes.
    Mr. Foster. Thank you, Mr. Chairman, and before I return to 
this--today's symposium theme on magnetocaloric refrigeration, 
I would like to make just a few comments about, you know, the 
elephant in the room here which is the proposed draconian 
budget cuts to the entire laboratory system.
    Earlier this month I was joined by 55 of my colleagues in 
sending a letter to the heads of all seven science agencies, 
asking about the impact of our Republican President's budget 
request on jobs, not only at our national laboratories, but at 
our universities that rely on federal funding to train the next 
generation of scientists. We have yet to receive any response 
to this, and I think that, you know, despite the risks that 
have been mentioned to the morale of everyone involved, I think 
it's important that we look this dragon in the eye and make 
sure that all Members of Congress who claim that they support 
science speak up at times when science funding is at this kind 
of threat.
    So without objection, I ask unanimous consent to submit 
this letter to the record.
    Chairman Weber. So ordered.
    [The information appears in Appendix I]
    Mr. Foster. Now to get back to the fun stuff.
    Materials science, you know, like many other disciplines, 
has benefited very greatly from R&D funding. And so actually, 
I'll return to Dr. Schwartz for a second, despite the fact that 
you do not--you're not part of my constituency as Dr. Tirrell 
is.
    You know, you mentioned a 40 percent--40 percent is a rough 
estimate for the layoffs. When that sort of thing happens to a 
technical staff, if future administration or future Congress 
decided to just restore that, can you just throw a switch and 
immediately regrow the technical expertise that's been lost, or 
is it more complicated than that?
    Dr. Tirrell. I think it would be much more complicated than 
that. Scientists who either choose or are forced to leave their 
jobs will look for others. I don't believe that private 
industry is going to be able to pick up all the researchers 
that would become available through this budget. They would 
then search to change their fields. We have many researchers at 
Ames Laboratory and across the National Laboratories system who 
have come from foreign countries. There would be a significant 
risk that many of those scientists would return to their home 
countries. They would take their education, their experience, 
all of the investment that we have placed in them, free of 
charge, back to their country. Right now, we are trying to 
extend our global leadership in materials research. I think 
slowing down that progress and then restarting it later would 
be quite a challenge.
    Mr. Foster. And is--maybe someone else on the panel could 
comment on the effect that that would have on the morale of 
younger students coming into the field or post-docs coming into 
the field when they see, you know, massive layoffs in their 
often very focused field of expertise? Dr. Higgs?
    Dr. Higgs. Well that's what my notes were actually saying. 
That's a very perceptive question. I mean, if you think of a 
lab like, say, Ames or Argonne in particular, Argonne has 
some--in my area, they have some very prominent tribologists, 
and essentially what happens is if the tribologist is just a 
little known, once they are removed and someone says hey, you 
know, this particular scientist no longer has a job, then the 
entire community goes what does this mean for tribology? Should 
we all try to head for Silicon Valley? Should we all do 
something with the right now implication as opposed to a long-
term implication, which is what research science has? And then 
the younger students, we have to give a speech to encourage 
them to stay the course, but yet we're uncertain as well.
    So definitely, even though we're in a university 
environment, whenever there's a cut to a prominent area or 
prominent scientist, once they're removed from the equation, 
there's a lot of questions that we have to answer as 
academicians and the students are asking about that. Excitement 
and morale definitely takes a hit.
    Mr. Foster. Thank you. I think that's a very important 
thing for Congress to understand, that this is not at all like, 
say, starting and stopping a highway construction project. You 
can't just throw the switch and recover the damage that was 
done.
    Sorry. Now let's see. I have a little bit of time left, so 
I'm going to return to magnetocaloric refrigeration. It's my 
understanding that the fluid--the working fluid that's here is 
largely just a heat transfer fluid. There's no phase change 
involved, and the compressors involved are a small fraction of 
the total power to do--perform the refrigeration. Is that a 
correct understanding, or is it more subtle than that?
    Dr. Schwartz. There are lots of details on how you would 
implement a solid state magnetic or electric or stress-induced 
cooling system. Our focus right now is the very, very early 
stages. Can we develop the materials in order to--that 
demonstrate, that have those large temperature change. At that 
point, we will turn it over to our mechanical engineering 
friends who will then design the system, optimize the fluid 
flow, heat transfer, and others. Right now, our focus is really 
on creating those materials that will enable the transformation 
in air conditioning and refrigeration.
    Mr. Foster. And the rest of the problem, just the getting 
the heat transfer fluid across the plates or whatever they are, 
is a--it's closer to being a solved problem and an engineering 
optimization. The magic is the material that you have to make 
work and at high efficiency, high lifetimes, all the 
challenges?
    Dr. Schwartz. That is my understanding, yes.
    Mr. Foster. Okay, good luck. I really look forward to 
having refrigerators that don't rattle in the middle of the 
night.
    Dr. Schwartz. And last much longer. Thank you for your 
question.
    Chairman Weber. If you'll quit getting snacks out of the 
doors at midnight, then you won't hear that rattling.
    The Chair now recognizes Mr. Marshall for five minutes.
    Mr. Marshall. Thank you very much, Mr. Chairman.
    Both Dr. Schwartz and Dr. Higgs mentioned 3D printers. 
Chairman Lamar Smith and I recently got to go to Wichita State 
University and see the largest 3D printer in the world, about 
1/3 the size of this room, and we'd love to invite you all to 
come see what they're doing there on their innovation center, 
always believe it's opportunities to promote each other and 
work together.
    I should ask Dr. Schwartz and Dr. Higgs both what they 
see--what's next for 3D printers, specifically, you know, 
what's going to be a game changer? What type of more viable 
mass do we need? What do you see next for 3D printers? Dr. 
Higgs, do you want to go first?
    Dr. Higgs. Very good. Thank you for the question.
    I mean, definitely if you think about it, when you look at 
Star Trek you don't see really big engineering manufacturing 
labs. You just see something very small, and they ask for the 
product to be developed. And so that's kind of where attitude 
would have to hit. So you would want essentially to be able to 
additively manufacture anything, and that means that you have 
to be able to work with multiple materials. Right now you see a 
beautiful 3D printer, but it only prints a limited amount of, 
say, materials that are there. So this big one that you talked 
about is probably a metal printer, and if it is, it's a limited 
set of materials. But if you want to print something that's, 
say, biocompatible, then you may not be able to use steel or 
gold or something like that, and so you need to be able to 
change out the different materials. If you want them additive, 
you can build them part by part. You want the mechanical 
properties to change as you want them to, then that means you 
have to have a functionally graded material, which means that 
it may start one mechanical property at one end, and be another 
at the other end. Right now that can't be done, and so there's 
some important material science questions that have to be 
answered.
    But the point is that you want to print anything as you 
want as it could occur. Additive can do that in principle, but 
the basic science questions have to be answered to unveil that 
to the society.
    Mr. Marshall. Dr. Schwartz, anything to add?
    Dr. Schwartz. That's an excellent question, and to me, the 
key to successful deployment of additive manufacturing in this 
growing industry in the U.S. is all about understanding the 
materials properties. Researchers have been trying to 
understand details of steel, aluminum, titanium alloys for 
decades, if not centuries, and they still don't have full 
understanding. Now we want to make additively manufactured 
parts out of the same materials, but the process is so much 
different. The composition will change as you melt and re-melt 
as you make the powders.
    Right now, I believe the key is getting a fuller 
fundamental understanding of--starting at the very beginning, 
developing the metal powders. Without the metal powders, none 
of the metal additive manufacturing happens. Those powders have 
to be pure. They have to be spherical. They have to flow 
nicely. They have to have the right surface conditions, and all 
of this is based--we need that basic research understanding to 
get there. No one has ever looked at laser melting of particles 
in great detail. This is a brand new field. Ames Laboratory is 
working with SLAC and Lawrence Livermore National Laboratory 
and using one of the national user facilities, Stanford 
Synchrotron Radiation Laboratory, in order to understand that 
the early stage materials melting and resolidification and 
development of that most important internal structure that's 
going to control the properties. It's a very exciting time.
    Mr. Marshall. It is. One of the exciting things I saw was 
they build you to take away from the product that it's printing 
and telling the machine to maximize it, so they were doing wing 
replicas and trying to have a stronger wing for airplanes, for 
jets, but yet lighter, and to see that technology come forward. 
So it is very exciting as a physician to see what they're doing 
in joints, to think that instead of having your choice of hip 
joints as small, medium, or large, you can actually make one 
that fits your joint is exciting.
    Last question for Dr. Higgs. I see that you won the NSF 
Career Award, so congratulations. Professors at Kansas State 
University, which is the champion of the Texas Football League 
this past year, having defeated----
    Chairman Weber. This gentleman's time is also expired.
    Mr. Marshall. --Texas A&M, TCU, and Texas Tech. Anyway, 
professors at Kansas State University, Wichita State 
University, and University of Kansas have all won that 
recently. Tell us a little bit about that and what you're doing 
with that foundation grant, please.
    Dr. Higgs. Very good. So I had an NSF Career Award. It's 
supposedly given to the nation's youngest--best young 
researchers. And I do want to say that the research from that, 
which was actually to develop slurry technology, was about five 
years after that grant. It became an NSF SBIR company, 
InnovAlgae, that I now have. And so it's making it back up to 
the marketplace because of the basic science research that's 
now translated into a small company. Thank you.
    Chairman Weber. The gentleman yields back. Ms. Bonamici is 
recognized for five minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to all of the witnesses for being here today.
    I want to start by aligning myself with Dr. Foster's 
comments about education and the message that these budgets 
cuts send, both to students who are contemplating graduate 
school or students who are in undergraduate trying to decide 
their career path. I just came from the Education and Workforce 
Committee on which I serve, and have as a priority wanted to 
make sure that we are educating people here in the United 
States for the jobs of tomorrow. I am very concerned about the 
sort of shift in the message that we're sending.
    There was a time when federal funding for research and 
development was growing and graduate students were optimistic 
about careers in research. We need to get back to that message 
to our students and our potential new scientists across the 
country, and I'm very concerned about that, and our leadership. 
And I just point out as one recent--very recent example that 
disappointing decision to exit the Paris Climate Accord, and 
then immediately France started recruiting our scientists. We 
need to have U.S. leadership here and maintain that leadership, 
and I'm, again, very, very concerned and share the concerns of 
others about what these budget cuts--what the message is to 
students and to the rest of the world.
    I'm--Congress really needs to think holistically and long-
term about supporting the sciences. I'm concerned about multi-
year projects which Mr. Foster mentioned, and I've heard from 
scientists in Oregon who are very concerned about the lasting 
effects of these cuts to their research, to the country, to our 
leadership, and the global community.
    Dr. Higgs, could you speak briefly about the concerns of 
your students when they're considering continuing careers in 
research? How do you advise them about their future careers in 
light of these uncertainties and proposed budget cuts? And I do 
want to save time for another question.
    Dr. Higgs. Very good question. So we definitely are always 
trying to aim them at going to academia, a government lab, or 
an industry. We would really like to work on basic science, 
because we know fundamentally that will translate into anything 
there, but you become more constrained as cuts come. Cuts 
usually--government cuts usually mean that basic science is 
out, so then we have to work on some specific problem, and so 
then we become people who are out looking for funding all of 
the time, rather than educating, because we have these young, 
bright minds we really want to go through and get a Ph.D.
    Ms. Bonamici. Absolutely.
    Dr. Higgs. So we look at mentoring them. Government labs we 
work with, they also mentor our students as well.
    Ms. Bonamici. Right. We want them to get their Ph.D. and 
stay here.
    So in the President's--this is Dr. Schwartz. In the 
President's budget proposal, the Office of Energy Efficiency 
and Renewable Energy would receive a 70 percent cut. The 
Renewable Energy and Sustainable Transportation portfolio, 70 
percent reduction. Energy efficiency, 80 percent cut. This is 
concerning. Clean energy jobs are an important driver of our 
economy and the research helps advance these industries. In 
fact, the Bureau of Labor Statistics found that wind turbine 
service technicians--it's one of the fastest growing 
occupations. Many of those jobs are in rural areas. How would 
these massive cuts to EERE affect materials research at your 
labs and in the clean energy industry, and how would they 
affect the growing--rapidly growing clean energy job sector?
    Dr. Schwartz. Specifically for Ames Laboratory, we have 
really four main projects that are funded through Energy 
Efficiency and Renewable Energy. The Critical Materials 
Institute, one of the four energy innovation hubs, a very 
important scientific endeavor, early stage basic research that 
is supplying critical options for the United States moving 
forward with regard to rare earths and other critical 
materials.
    Just last week the only mine in the United States that was 
producing rare earth materials was sold. We now have no 
capability to mine rare earths. That's a big concern for me in 
terms of economics and in terms of national security.
    Another big project, the caloric materials consortium that 
we've spent a little time talking about today, that is also 
funded by EERE. The powder synthesis work that we are doing, 
trying to create optimized metallic powders to enable the 3D 
printing industry, that is also funded by EERE. All of those 
are in jeopardy if this budget goes through.
    Ms. Bonamici. And in my remaining time, could you, Dr. 
Schwartz, address--the President's budget declared some 
research at an early stage worthy of federal support, and other 
activities as later stage research that should be immediately 
eliminated, given that the private sector is supposedly better 
equipped to carry them out. I'm very concerned about this, 
because the Administration confirmed that they did not engage 
with the private sector. So in your experience, are the cuts 
proposed in the budget research areas--is the private sector 
willing to simply start funding if the federal government cuts 
these?
    Dr. Schwartz. I shouldn't be speaking for the private 
sector. I gave one example earlier of when Ames Laboratory 
developed a new material, industry says okay, we got it. They 
didn't get it, and about 20 years later, we are 
reinvestigating. We are pursuing that path again. I am sure 
there are cases where private sector can pick some of it up. I 
don't think that that's going to be sufficient.
    Ms. Bonamici. I see that my time is expired, but I would 
like to follow up on that later.
    Thank you, Mr. Chairman. I yield back.
    Chairman Weber. I thank the gentlelady for yielding back. 
Mr. Webster, you are up for five minutes.
    Mr. Webster. Thank you, Mr. Chairman. I would like to focus 
in on one thing, and that is a couple years ago there was sort 
of the storm of the century in the Northeast, and there was 
about $50 billion it cost the federal government to pay for the 
damages that were done there. Also back a few years ago--I have 
relatives in Chicago and in Oakridge, and I've toured both the 
national laboratories there. It seems like maybe one, maybe 
both were working on some fiber for composite material that 
would be way less expensive than what it is at that time, and 
that was--I was interested mainly in the construction industry 
because of resilient construction. I've been trying for a few 
years here--I did finally get resilient construction defined, 
so now we have it defined, and yet I could see the real 
potential with composite materials and construction areas, not 
only from a light weight, but also a durability so that when we 
have these storms, you know, our loss may have been in the 
hundreds of millions, but not $50 billion.
    Could someone talk about--maybe Dr. Tirrell--of what's 
going on at the national laboratories in that research area?
    Dr. Tirrell. Thanks for that question. There's--that's one 
of many kinds of efforts in composite materials, some of which 
are based on additive manufacturing, some of which are based on 
new polymerization methods. Many of these things have organic 
plastic components to them. That's where the light weight comes 
from.
    Mr. Webster. Would that also--can I ask----
    Dr. Tirrell. Sure.
    Mr. Webster. Would that facilitate using these 3D 
printers----
    Dr. Tirrell. Yeah.
    Mr. Webster. Yeah.
    Dr. Tirrell. Yeah, that's what I was getting at, and I 
did--I wanted to say something earlier, too. I think there's 
huge frontiers on 3D printing. As 3D printing developed, it 
really wasn't 3D printing in a way. It was 2D printing over and 
over again. But now by the application of other kinds of fields 
of light and so on--I'm a polymer scientist myself, so I'm 
thinking more about the organic materials than the metals, but 
one can make very spectacularly different 3D shapes than could 
be made in the early days of 3D printing of polymers. There's 
startup companies in this area--but anyway, at Argonne, which 
is what I'm representing today, we're trying to open up a field 
that we call manufacturing science.
    Mr. Webster. By the way, Dr. Don Hillebrand gave me the 
tour.
    Dr. Tirrell. Good. Well he's the director of our energy 
system division.
    Manufacturing science refers to the new science questions 
that come up. When you try to take something from the 
laboratory into larger scale production, you're doing it 
bigger, faster, cheaper, and the materials just don't behave 
the same way at that scale and at those time scales as they did 
in the lab. So Argonne is trying to be a leader in, as I said, 
what we're calling manufacturing science, which is new basic 
science applied to a manufacturing scenario.
    Mr. Webster. Are you familiar with the term resilient 
construction?
    Dr. Tirrell. Yes.
    Mr. Webster. The whole idea is that you can use the 
building the next day----
    Dr. Tirrell. Right, yeah.
    Mr. Webster. --once the wind comes or whatever comes.
    Dr. Tirrell. Yeah, resilience in general is a big focus at 
Argonne which extends beyond material science, but we're on 
materials here today, so----
    Mr. Webster. Well in other--along those same lines in 
science, there is--matter of fact, it seems like there's a 
couple universities offering corrosion engineering as a 
graduate degree, and it just seems like that--the construction, 
especially in maybe the realm of steel or other things where 
there's so much corrosion that there would be some usefulness 
in that.
    Dr. Tirrell. Yeah, absolutely. I mean, that's a huge 
economic drain. I mean, so far we've lived with it, but the 
point is if you could stop that or make materials last longer--
and there are various centers of excellence. It's not a 
particular focus at Argonne.
    Mr. Webster. Great.
    Dr. Higgs, too, I'd like to say to you come back to Georgia 
Tech. I just did the commencement exercise there here a few 
weeks ago, but you were a great contributor at that time. It's 
been a while.
    But anyway----
    Dr. Higgs. Thank you.
    Mr. Webster. I--when I graduated as an engineer, my mom 
gave me a card that said four years ago, I couldn't even spell 
engineer. Then you open it up, on the inside it said now I are 
one, so----
    Dr. Higgs. Right.
    Mr. Webster. --I still are one, even though I've got a 
different profession now.
    I yield back.
    Chairman Weber. Did she ask for any repayment of the money 
back?
    Mr. Webster. She should have.
    Chairman Weber. I understand. Our parents give us a lot, 
don't they?
    Ms. Esty, you're now recognized for five minutes.
    Ms. Esty. Thank you, Mr. Chairman, and I want to encourage 
my friend, Daniel Webster, to join the Corrosion Prevention 
Caucus with me and Pete Olson, and the Resiliency Caucus, 
because we are very interested in these issues, and again, I 
think this is an area where basic research can save money, save 
lives, and would encourage that to be part of sort of our 
national initiative, and particularly with a move to pull us 
out of the Climate Accords. Climate is going to do what it's 
going to do. We need to be prepared, so I would encourage all 
my colleagues to do that.
    I had a couple things I wanted to quickly go through in the 
limited time I have. First was just give an example that 
illustrates what many of my colleagues have talked about. I 
represent Connecticut. U-Conn has the Materials Genome 
Initiative funded through NSF. They're deeply worried. They 
came to meet with me a couple of weeks ago, and are very 
concerned about what these proposed cuts would do to their 
program, and many of those issues you've discussed about not 
only losing those particular projects, but in so doing, lose 
the talent pool, lose the grad students, lose the entire lab. 
And so I just think we really need to understand the 
implications. It's not a one-year cut. We actually risk losing 
them to other countries. We risk American competitiveness. So 
that's one. I just want to lend my voice to others.
    The two other topics I want to quickly touch on, one is on 
ARPA-E, and the other is on STEM diversity and diverse 
workforce, which many of us are pretty passionate about.
    Dr. Tirrell, I know that you've--the Argonne lab has done a 
lot of work on ARPA-E. If we're going to look at advanced 
materials and energy efficiency, it's incredibly important. 
You've done a lot of important work. We're looking at, you 
know, dramatic basically elimination of that. Could you talk a 
little bit about whether you think the private sector can fill 
in that gap, you know, the difference between who does basic 
research and who doesn't do basic research? I appreciate the 
mention, Dr. Higgs, of SBIR and that translation from basic 
research into commercial exploitation, but the basic research 
still has to be done. Dr. Tirrell, if you could talk a little 
bit about that.
    Dr. Tirrell. Well it does turn out that I am part of an 
ARPA-E project based at Argonne that has to do with how to 
improve the both acoustic and thermal insulation of windows 
with polymer coatings, and as I mentioned, I'm a polymer 
scientist. And so, you know, with a very well-defined need 
specified, we'd like to have this much insulation for sound and 
this much insulation for heat, and by the way, you can't make 
the windows foggy or anything like that. We're trying to design 
some polymers that will do that. So it's a good example of use-
inspired basic research.
    I also pointed earlier on to the basic energy science basic 
research needs workshops that in some ways frame things like 
that. They look at what an area of technology needs, and then 
talks about where we're missing out in basic research.
    On the EERE or the Energy Efficiency and Renewable Energy, 
I think within that, there are great ways of advancing U.S. 
energy competitiveness. There's the Advanced Manufacturing 
Office, which relates to some of the things I was saying to 
Representative Webster about manufacturing science. So you 
know, I think these are valuable programs. I'll just leave it 
at that. They do things in a special way and produce good 
results.
    Ms. Esty. Thank you very much.
    Dr. Locascio, I know you've recently blogged about 
diversity and science in your son's pride, and you being a 
scientist, and I was just with my big data son early this 
morning and thought about the importance of modeling that. And 
Dr. Higgs, you're noted for your efforts as well.
    Quickly, for both of you, what can we do? What can the U.S. 
Congress do that would help ensure we are actually opening up 
that pipeline for each and every young person in this country 
to understand these are exciting fields? And we need their 
talent. We need their life experience. We need their input and 
their energy. Thanks.
    Dr. Locascio. Thank you for the opportunity to speak about 
this. I'm so passionate about it as well, so I appreciate that.
    Yes, so there are several things that you talked about. 
First, getting people into the workforce is very difficult, and 
as you said, getting females or attracting females into the 
STEM research fields is very difficult. So given the fact that 
there could be changes in the way that we're recruiting and 
attracting people, at this particular time and in the budget, I 
think it makes it even more difficult. But the second part is 
retaining them, and then the third part is elevating them to a 
stature of leadership.
    And so that's something that I have really thought a lot 
about. How do we make sure no matter what you look like or 
where you come from, what your cultural background is, we need 
you at the table in order to get the best people and the best 
ideas out there and supported for the sake of science in the 
United States. And so mentoring, guiding people, trying to make 
sure that we have adequate salaries to recruit them and retain 
them, they're all important facets of the equation. But then 
just making sure that we elevate them and promote them fairly, 
equally, and then showcase their talent in front of people so 
that they can be seen, I think is critical.
    Dr. Higgs. Very good question.
    So I will definitely say that we like to produce a diverse 
number of scholars. A lot of you all have met goals because 
you've seen people that look like you, and it's the same 
dynamic that goes on with young people. I myself graduated from 
a historically black college and university. I saw people that 
looked like me had Ph.D.s and so I wanted to do that. I see my 
friend over here, Chris Jones, just got his Ph.D. from MIT. 
He's a graduate of Morehouse College as well. He saw people 
that looked like him, and he wanted to go and be an astronaut 
and do other things, like Mr. Webster become a politician and 
engineer as well. So it's a very important part of producing 
the nation's next generation of scientists and engineers. Thank 
you.
    Ms. Esty. Thank you very much.
    Chairman Weber. The Chair now recognizes Mr. Hultgren for 
five minutes.
    Mr. Hultgren. Thank you, Chairman. Thank you all so much 
for being here. This is really important, something we're 
passionate about, I'm passionate about, and research and 
development is so core, and especially that basic scientific 
research is something we've got to make sure funding is 
continued to remain, something the private sector can't do. 
It's something we're going to continue to fight with the 
current Administration and also fought the past Administration 
oftentimes where they were pushing certain types of projects 
and away from basic research. And so I want you to know there's 
strong voices on both sides of the aisle that have--continue 
that commitment and will continue to fight.
    Also, I share my Illinois colleagues to thank Argonne. 
Thank you, Dr. Tirrell and the great work that Argonne is 
doing. We're so proud of you, so proud of what's happening at 
Argonne. But also at a time when there's not a lot to brag 
about in Illinois, we can brag about our research and so proud 
of Argonne and Fermi. You look at the data, the Elsevier and 
the Illinois Science and Technology Coalition. Rankings 
recently put Illinois ranking at 94th percentile in publication 
impact for material science fields, 86th percentile in 
publication volume. That's very impressive and something we 
absolutely are proud of. And I think a large recent we got that 
big impact is because the national labs accessibility certainly 
to students, but also as user facilities they are crown jewels 
in our research ecosystem. And that gives access to researchers 
throughout the country to high-end tools which no one 
university or business could ever maintain or have access to. 
So thank you. Keep up the great work. We're here to support 
you.
    These user facilities are also proposed in a well thought 
out manner where the research community must set goals through 
the advisor committee process, and base these facilities on 
long-term needs. The 2016 BSAC report called the advanced 
photon source upgrade ``absolutely central'' to contribute to 
world leading science and ready to initiate construction.
    Dr. Tirrell, I wonder if you could explain to the Committee 
why this facility upgrade is absolutely central to contribute 
to world leading science. Also, could you describe who the 
users are at such a facility? Where will this research be done, 
if not here in the United States?
    Dr. Tirrell. Thank you very much.
    Yes, there's over 5,000 users every year of the advanced 
photon source. The upgrade is really necessary to keep it at 
the state of the art or push the state of the art. And by that, 
what we mean is intensity and coherence of the x-ray beam, and 
the more intense and the more coherent, the better--the more 
like a really infinitely powerful microscope the x-ray source 
becomes. So it sort of changes its nature a bit from a 
scattering tool to an imaging tool.
    Investments are being made in Europe and in Japan, and 
they're pushing the frontiers too, but the APS upgrade will 
land us in 2025 with the best hard x-ray source in the world, 
and that will keep not on the U.S. science community strong 
itself, but it will keep people from all over the world coming 
here because we are the best. That's very enriching.
    Mr. Hultgren. It is, and that's, I think, the point that we 
always have to continue to come back to, remind ourselves 
certainly the value of these 5,000-plus users, the access that 
they have, the multiple impact on our economy for new 
discoveries there. I've heard about some amazing things that 
are coming out that really could be game changers for the world 
as far as energy goes, but also economic impact. So it is 
really important.
    The other point you bring up is this research likely is 
going to happen, if not here, somewhere else. A lot of other 
countries are aggressive. They're not where we are. They're not 
able to lead right now, but if we fail, they're willing to step 
in. But we're also recognizing for us to be a part of 
important, big, groundbreaking, earth shattering research, 
collaboration likely is going to have to be a part of that. 
Reaching out and bringing other countries is part of that. I 
wonder if you could just talk a little bit about that, looking 
for solutions to new problems like new materials for batteries, 
or solving other problems in material science, how 
collaboration works within our own country. So Fermi Lab 
working with Argonne and University of Chicago at the Institute 
of Molecular Engineering for the Chicago Quantum Exchange, 
talking a little bit about these hubs, but then also how that's 
a draw on the international stage as well.
    Dr. Tirrell. Yeah, thanks very much.
    You know, back on the thing that you said about Elsevier, I 
was actually contacted by a writer from Nature magazine who 
wants to write a story about material science in Northern 
Illinois, which is something I have been hoping for----
    Mr. Hultgren. Fantastic.
    Dr. Tirrell. --for a while. The Chicago Quantum Exchange is 
an effort to merge our resources among the institutions in 
Northern Illinois and in the Chicago area to lead in the next 
phase of what might be called post--computing, and that's, 
again, you know, a very, very competitive situation.
    I have in front of me two weeks ago Science magazine that 
touts the Chinese communication satellite that demonstrated 
quantum communication between a satellite and Earth. You know, 
the world--the United States, you know, just went into really 
overdrive when Sputnik was launched in the '50s. That was 
launched by a country that was our adversary, but not in any 
kind of economic shape to drive developments. China is a whole 
different story. They are.
    Mr. Hultgren. They are, sir, right, and I think that is 
something that will be continuing to be motivating for us as 
Members of Congress, but also I think this Administration, that 
we can lead. We need to lead. We should lead. We're in the 
right spot, but we got to make sure that we're following it up 
with the proper support there.
    I could go on for another 20 minutes. Thank you all for 
being here. We're so proud of you. Dr. Higgs, just want to give 
a shout out that grateful for your research, your work. I would 
say you're certainly an inspiration to many, and I would say--
you talk about people who look like us, but I would say to all 
of us, all of you are inspirations. I just want to thank you 
for your great work. It is so important for us to inspire that 
next generation that science and discovery is still important, 
and it can happen here in America. So thank you. Keep up the 
great work. Let us know how we can help.
    I yield back.
    Chairman Weber. I thank the gentleman. The gentleman surfer 
from California is recognized for five minutes.
    Mr. Rohrabacher. Thank you for acknowledging my great 
achievement. All right.
    Chairman Weber. It's the one time he can wax eloquent.
    Mr. Rohrabacher. There you go. Oh, that's good. I like 
that.
    All right. Okay, first of all, let us know we wouldn't be 
on this Committee if we didn't believe in basic research. I 
mean, that's Republican, Democrat, we all are on this 
Committee; however, we are also Members of the House that have 
to deal with budgets, and it's great idealism. I happen to 
believe in limited government, and I believe how we can make 
sure that government doesn't grow out of proportion is making 
sure that science develops alternatives so that we can solve 
vexing problems through science rather than through 
bureaucracy. So nothing--let me just note, nothing should say 
that we are not united in that, but let me just note that when 
you're dealing with budgets, my colleagues on the other side of 
the aisle lament that we got out of the Paris Treaty, which 
really cost us billions of dollars, billions. That was the 
purpose of it was to redistribute wealth from us to other 
countries that weren't quite so well off. Now whether we like 
that or not, the fact is that means those billions wouldn't be 
available for us for scientific research. And so when we're 
talking about this, let's keep that in perspective, that there 
are other things people are complaining about, trying to have 
to deal with budgets across the board, which we try to do, that 
you can't ask for billions more to be spent on the Paris Treaty 
and expect to have full funding for these projects.
    Let me ask, how do we get more money in from--we conferred 
to this with the space program about two decades ago when I was 
very involved in this Committee on that, and I--we figured out 
we couldn't put more money in and balance the budget in terms 
of the space program, and I'm very proud that I worked on the 
Commercial Space Act and with that Space Act, we laid the 
foundation for billions of dollars of private sector 
involvement in space. And that was the new resource that we had 
coming in. And is there some way that, number one, we can get 
the private sector--for example, right now these studies that 
you do and the information that you come forward with, the new 
materials that you're talking about that play such a vital role 
in progress, companies actually utilize this to build products 
that help our lives. But they also make a big product--I mean, 
a big profit in making those products. Do we have now a 
situation where those companies that are profiting by using 
your direct research in some way are paying a payback to the 
federal government or to this--our science community?
    Dr. Tirrell. The short answer is yes, they are, but not as 
much as they might.
    In some ways, universities and national labs have filled in 
the gap for what used to be much more vigorous and extensive 
industrial research labs in the chemical industry, in the 
electronics industry, in the computer industry and so on, so 
you know, I think companies do, obviously, what's in their 
interest. That's what they're supposed to do. But I think it 
would be in their interest to invest more in collaborations 
with universities and national laboratories.
    Mr. Rohrabacher. Yeah. When I was young, my dad took me to 
that laboratory there in Dearborn, Michigan, and it was 
Edison's lab up there and it was really very impressive for me 
to see that. We went to--also next door to where they were 
developing new things for the cars. That was private funding, 
and I think Edison's was privately funded as well, come to 
think of it. Should--is there--we need to make sure that we do 
not encourage our industry to continue to be subsidized like 
this. If there is a way that someone is using the research, 
should we not try to make further demands on people? If they're 
going to make a profit from what you're researching, shouldn't 
they be paying more then for the use of that, instead of having 
the taxpayers having this as a hidden subsidy?
    Dr. Tirrell. Well I think, you know, it's a complicated 
situation. I don't think--at least I couldn't tell you what the 
right formula would be there. I would just express an overall 
hope that there would be more collaboration.
    Mr. Rohrabacher. Well if we do it for free, we can't blame 
the companies for taking it free. And we have a patent system 
in our country. Isn't--couldn't we then--is there a way that we 
could expand the protection of the patent so that materials 
that are developed in the public sector are--or even in the 
private sector, but mainly what you're doing with public money, 
that that has to be repaid to the owner of the patent, which 
would be the government in that case?
    Dr. Tirrell. Well generally speaking, at universities or at 
national labs, the owner of the patent is the university or the 
national laboratory, and then licensing fees are paid. And 
Argonne gets millions of dollars a year in licensing fees. So 
that kind of thing is happening----
    Mr. Rohrabacher. Okay.
    Dr. Tirrell. --and you know, I think it is a matter of 
developing a good system and figuring out if the balance is 
right there.
    Mr. Rohrabacher. Well let's see if we can do that. That's 
an avenue--we shouldn't just look at scientific basic research 
as simply it's going to be part of the federal bureaucratic 
programs that we--let's see if we can make things more 
efficient by making sure that the people in the private sector 
who profit from what you're doing are maybe paying a little 
higher share, but also, that will encourage them to be doing 
research as well.
    So with that, thank you very much for all the good work 
you're doing. I certainly wish you success in coming up with a 
material that's going to make us cool in the summer and warm in 
the winter. That's great. Thank you very much.
    Chairman Weber. I thank the gentleman for yielding back.
    I want to thank the witnesses for their valuable testimony 
and the Members for their questions today. The record will 
remain open for two weeks for additional comments and written 
questions from the Members.
    I do want to end by saying that this Committee and the full 
Science Committee obviously is committed to research. Chairman 
Smith has been a staunch advocate of it, both sides of the 
aisle. And so we look at this budget and we say that is simply 
a submitted budget, but I'm going to encourage and I think 
we're going to continue to be able to help with research as 
much as absolutely possible. We are holding--trying to do a lot 
of things, spinning a lot of plates. If you all could quickly 
come up with a material to make those plates lighter, you know, 
it would make our job easier.
    So I want to say thank you for being here today again. You 
all have--we could have gone on for a long time. This is very, 
very interesting. We appreciate what you guys do.
    This hearing is adjourned.
    [Whereupon, at 12:04 p.m., the Subcommittees were 
adjourned.]

                               Appendix I

                              ----------                              


                   Additional Material for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
